CERTIFICATE OF SERVICE
NO. TBD
Taylor & Sons et al.
Petitioners,
v.
United States
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the TAYLOR
& SONS ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing a true and correct copy of the same by
Fedex 2-Day, prepaid for deliveryto the following addresses.
Elizabeth B. Prelogar
Solicitor General,
United States Department of Jusctice
Room 5616
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for United States

Harry W. Zanville
Attorney at Law
10740 El Marbea Lane
La Mesa, CA 91941
(619) 400-7164
hwzlaw@gmail.com
Counsel for Mike Finnin Motors et al.

Lucas DeDeus

August 13, 2021

SCP Tracking: Marzulla-1150 Connecticut Avenue, NW-Cover White

